Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





     HOSPITAL CLOSURE: 1995





                                                            .- -




                     SERVICE$
                #            “G*
           ~+
          +
                   7

         w
                         JUNE   GIBBS BROWN
         g
         4                          Inspector   General
         $	
         ‘5         ~
          %+.                              NOVEMBER 1996
                 >
                4+d3a
                                            OEI-04—%00060
                    OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statuto~ mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.


                      Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

The OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J.
Flowers, Regional Inspector General, and Christopher Koehler, Deputy Regional
Inspector General. Principal OEI staff included:

Atlanta Retion                                   Headmmrtem

Ron Kalil, Team Leader                           Winnie Walker, Program Specialist

Peggy Daniel, Program Analyst                    Linda Moscoe, Technical Suppoti

Jackie Watkins, Bogram Analyst

Paula Bowker, Program AnaZyst


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-4108.
                 EXECUTIVE                         SUMMARY


PURPOSE

To describe the extent, characteristics, and impact of hospital closure in 1995,

BACKGROUND

The closure ofhospitals inpast years had generated public and congressional concern.
We released areport in May 1989 describing the nationwide phenomenon ofhospital
closurein 1987. We issued subsequent annual reports in 1988 through 1994.

The findings from all the OIG studies of hospital closure are similar. The hospitals that
closed were small and had low occupancy rates. When the hospitals closed, few patients
were affected. Most could get medical care nearby.

FINDINGS

Our inspection of hospital closure in 1995 produced findings similar to those previously
reported for 1987-1994.

�	     Thirty-seven general, acute care hospitals closed. This is twenty-one more than in
       1994 but still less than in any other year since we began this series of reports.
       Four new general, acute care hospitals opened in 1995, and one hospital that
       closed in 1991 reopened in 1995.

�      Thirteen of the closed hospitals were rural and 24 were urban.

�	     Closed hospitals in both rural and urban areas were smaller than the national
       averages.

              Rural hospitals that closed had an average of 46 beds as compared to an
              average of 74 beds for all rural hospitals nationally.

              Urban hospitals that closed had an average of 110 beds as compared to an
              average of 228 beds for all urban hospitals nationally.




                                               i
�	   Occupancy rates for closed rural and urban hospitals were lower than the national
     averages.

            Rural hospitals that closed had an average occupancy rateof 21.8 percent
            as comparedto anaverageof33      .8 percent fora11 rural hospitals nationally.
            The average daily census in the year prior to closure was about 10 patients.

            Urban hospitals that closed hadan average occupancy rate of37.2 percent
            as comparedto an average of 50.2 percent for all urban hospitals
            nationally. The average daily census in the year prior toclosurewas41
            patients.

�	   Medicare utilization among hospitals that closed was slightly more than the
     national average.

            In rural areas, the average Medicare utilization among hospitals that closed
            was 58.1 percent compared to an average of 57.1 percent for all rural
            hospitals nationally. About 6 Medicare patients were in the hospital on an
            average day in the year prior to closure.

            In urban areas, the average Medicare utilization among hospitals that
            closed was 54.6 percent compared to an average of 48,8 percent for all
            urban hospitals nationally. About 22 Medicare patients were in the
            hospital on an average day in the year prior to closure.

�	   Medicaid utilization among hospitals that closed was less than the national
     average.

           In rural areas, the average Medicaid utilization among hospitals that closed
           was 7.8 percent as compared to an average of 11.9 percent for all hospitals
           nationally.

            In urban areas, the average Medicaid utilization among hospitals that
            closed was 10.9 percent as compared to an average of 13.9 percent for all
            urban hospitals nationally.

�	   Although residents in a few communities had to travel greater distances for
     hospital care, most had emergency and inpatient medical care available within 10
     miles of a closed hospital.

�	   At the time of our inspection, 17 of the 37 closed hospital facilities (46 percent)
     were being used for health-related services. Also, plans were being made to use 3
     of the remaining 17 vacant hospitals for health-related services.




                                             ii
                      TABLE                     OF CONTENTS


ExEamvE       summary             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 i

INTRODU(XION         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .....-””
       1

FINDINGS

     Extent and Characteristics          of Closed Hospitals               . . . . . . . . . . . . . . . . . . . . . . . .
 3

            How Many Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”’
                3

            Where Were They . . . . . . . . . . . . . . . . . . . . . .. OF. . . . . . . . . . . . . . . .
 4

            What Were They Like . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 4

     Impact ofHospital        Closure        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 7

            How Many Patients Were Affected                        . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 7

            Are Inpatient Care and Emergency

            Services Available . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 8

            What Is the Building Used For Now . . . . . . . . . . . . . . . . . . . . . . . . . . .
 9

ENDNOTES      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES


     Methodology         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-1


     Number of Hospital Closuresby                 State     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


     Hospital Closures byHospital              Name and Imcation               . . . . . . . . . . . . . . . . . . . . C-1

                                         INTRODUCTION


PURPOSE

To describe the extent, characteristics, and impact of hospital closure in 1995.

BACKGROUND

In the past, closure of general, acute care hospitals had generated public and
congressional concern. Numerous questions had been raised about the impact of hospital
closure in the United States, as well as implications for public policy. A number of
studies predicted that more hospitals would close in coming years.

In response to these concerns, the Office of Inspector General released a report in May
1989 describing the phenomenon of hospital closure during 1987 in the United States.
We found that the hospitals that closed were small and their closing did not severely
affect access to care. Many users of our 1987 hospital closure study encouraged us to
continue year-by-year analyses of the phenomenon to detect differences in the rate of
hospital closure, and in the characteristics and circumstances of hospitals that close.

Similar inspections of the phenomenon of hospital closure in 1988 through 1994 showed
a downward trend in the number of closures.


                                              HOSPITAL                    CLOSURE

                             #     of    Closures      in   U.S.
                loo–


                  so     –                            76




                  60-




                  40-




                  20     –                                                                          le


                    o-                                                                          m
                                 1eeJ7    -086      1999    *ciao         19”91   1992   1993   19L4

                                                                   YEAR




                                                                   1
The findings from the 1987 through 1994 inspections were similar. The hospitals that
closed were small and had low occupancy rates. When the hospitals closed, few patients
were affected. Most could get medical care nearby.

SCOPE

We examined hospitals that closed in calendar year 1995.

For purposes of this study, the following definitions were used.

Hospital: A facility that provides general, short-term, acute medical and surgical
inpatient services.

Closed Hospital: One that stopped providing general, short-term, acute inpatient
semices in 1995. If a hospital merged with or was sold to another hospital but the
physical plant continued to provide inpatient acute care, it was not considered a closure.
If a hospital both closed and reopened in 1995, it was not considered a closure.

METHODOIDGY

To determine the extent and impact of hospital closure, we obtained information from
State licensing and certification agencies, State health planning agencies, State hospital
associations, HCFA data bases, officials associated with closed and nearby hospitals, and
local public officials.

We obtained information on the characteristics of all hospitals and those that closed in
1995 from the Hospital Cost Report Information System (HCRIS) maintained by HCFA.

Appendix A describes our methodology in further detail.

We conducted our review in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             2

                                   FINDINGS


Our analysis shows that:

F	     Thirty-seven general, acute care hospitals closedin 1995. This istwenty-one more
       than in 1994, but still less than in any other year since we began this series of
       reports.

F      Most hospitals that closed were small and had low occupancy rates.

F	     Although residents of a few communities had to travel greater distances for
       hospital care, most had emergency and inpatient medical care available within 10
       miles of a closed hospital.


EXTENT AND CHARACTERETI~                OF CDSED       HOSPITALS

How Many Cl&xl

In 1995, there were 4,711 general, short-term, acute care hospitals in the United States
entered on HCFA’S data base as participating in the Medicare program. Thirty-seven
hospitals closed in 1995 -- 0.8 percent of all hospitals nationally.




Closure of the 37 general, acute care hospitals reduced inpatient bed supply by 3,238
beds, or 0.4 percent.

While 37 hospitals closed in 1995, 4 new general, acute care hospitals opened, adding 702
beds to the national supply of beds. In addition to the new hospital openings, 1
previously closed hospital reopened in 1995, adding another 23 beds.




                                             3

Where Were Z%ey

The closed hospitals were located in 20 States. Texas had the greatest number of
closures (11), followed by Louisiana (3). Five States had two closures each, and the
remaining 13 States had 1 closure each. Appendix B lists the number of hospital closures
by State. Appendix C lists the closures by hospital name and location.

About the same percentage    of rural and urban hospitals closed in 1995.




What   Were the Closed Hqi.tak Like

~      Hospitals that closed in 1995 were small.




                                               Number of Closed Hospitals

               Number of Beds       I    Rural       I   Urban     II   Total

                 0-30
                                    I
                                           3
                                                     1      1      1-
                31-50
                                    1
                                           7         ~
                                                            4      1-
                51-100
               101-200
                                    I
                                           2
                                           1
                                                     !      7      1-
                                    r                !      9      1-
               201-300                     o         I
                                    I                       3      11.J@L
               301>                        0                0      II   o
                    Totals                 13
                                                           24      IL




                                                4

Both the rural and urban hospitals that closed in 1995 were smaller than the average size
of rural and urban general, acute care hospitals nationally.


                                                HOSPITALS                      THAT   CLOSED
                                                        WERE                    SMALL

                               #           O*    Beds
                260        –                                                                227.9



                200        –




                160–




                loo–
                                                    73a



                 60        –




                      o–
                                       RURAL              HOSPITALS               URBAN         HOSPITALS


                                       _          National      Avg        =      Cloa.ci       Ho=pItal         Avg




occuDanq      Occupancy rates for closed rural and urban hospitals were lower than the
national averages.1

                               OCCUPANCY                              RATES              WERE              LOW

                60%        –

                                                                                        60.2%
                60%        –



                40%        –
                                                 s3.t3Mb


                30%        –



                20U        –



                lo%–



                 0%        –
                                   RURAL                HOSPITALS              URBAN        HOSPITALS


                                   _             National      Avg    ~        Clo=ed       Hospital       Avg




                                                                      5

Medicare Utilization: ~eaverage     Medicare utilimtion among rural hospitals that closed
was about the same as rural hospitals nationally. The average Medicare utilization
among urban hospitals that closed was higher than the national average.2

                                 MEDICARE                          UTILIZATION
                 70%    –


                                        67.-%     6a.1%
                 60%    –                                                                     64.e%


                 60%    –



                 40%    –



                 30%    –



                 20%    –


                 lo%–


                  0s    –
                                RURAL       HOSPITALS                URBAN         HOSPITALS


                            -       National      A-           =     Clo=gd        Hoapltal       Avg




Medicaid Utilization: In both rural and urban areas, the average Medicaid utilization
among hospitals that closed was lower than the national averages.3

                                 MEDICAID                          UTILIZATION
                 20%

                 18%

                 1 e%
                                                                               1s.9%
                 14%
                                        11.s%
                 1 2%

                 1 o%

                   e%

                   6%

                   4%

                   2%

                   o%
                            RURAL          HOSPITALS                 URBAN        HOSPITAL=


                            -       National      A-       =         Cloa-cl      Hoapltal        Avg




                                                          6

IMPACI’ OF HOSPITAL CIXISURE


In communities where hospitals closed in 1995, we assessed the


�      number of patients affected by closure of hospitals,


�      availability of inpatient care and emergency medical services, and


E      current use of closed hospital facilities.


How Many PaiikntsWereA#tzted

For rural hospitals that closed in 1995, the average daily census in the year prior to
closure was about 10 patients. The urban hospitals that closed had an average daily
census of 41 patients.




                                                     Rural Hospitals    Urban Hospitals
    Average Number of Beds                                  45.6                 110.2
    Average Occupancy Rate                              X   21.8%            X   37.2%
    Average Number of Patients                               9.9                 41.0


We analyzed Medicare utilization data to determine the number of elderly patients
affected by hospital closure in 1995, In rural hospitals that closed, about 6 Medicare
patients were in the hospital on an average day in the year prior to closure. In the urban
hospitals that closed, about 22 Medicare patients were in the hospital on an average day,




                                                     Rural Hospitals   Urban Hospitals
    Average Patient Census                                   9.9                 41.0
    Average Medicare Utilization Rate                   X   58.19?0          X   54.6%
    Average Number Medicare Patients                         5.8                 22.4




                                                7

h@mtientGareAn
           dEmergenq                                             Sbices Avaikdde

We assessed availability of inpatient and emergency medical care in miles from a closed
hospital to the nearest inpatient and emergency facilities.

Inpatient Care: In most communities where a hospital closed in 1995, inpatient hospital
care was available nearby.

            ..,.,.,.,:.
              ......,,.....,
            :+::::,::::, ...,..,,..,.,,,..
                            .....,.................
                                                .........   ..,.,,,.,.
                                                                  ,,.,.
                                                                     .,,,
                                                                      ....,.....,,...,.,,,,,
                                                                                       ..........,..,.
                                                             ...,,.,.:,,,,.:,:.,.,,..,..
                                                      ........,,,,,,:,,,                         ...................,..,.,.,.,.,.,,.,
                                                                                                                    :.:.x.:.:.
                                                                                                                        :.:.::::::::,::::::::.,:
                                                                                                                               ,..,.,.,:,::,,:,:::,,,,:::,
                                                                                                                                  ..      ::~.,,:
                                                                                                                                              ,,:.,,,,,,:.:,:,:,:,:,
                                                                                                                                                   ....:,:,:.:,:,:::,:,,,,.
                                                                                                                                                             :,:.:.:
                                                                                                                                                                :,:,:,:,:.:,:.:.:.:.:.:.:.:.
                                                                                                                                                                 .. .,. :.:.:,:,:,:,:,
                                                                                                                                                        ... ...:.,.,.         ::~::
                                                                                                                                                                                 :::
                                                                                                                                                                                  ..::::::::~~::~
                                                                                                                                                                                     ... ... .......
            :ti,::::::::.
            :.,.,.,.,.,.,,,     ..  :.      ..:  ..:;:..   . ,. .::
                                                                  .:
                                                                  :.+
            .........~ma--=~-mm?$
                       ...............i............................................. .x              ............ ...................................................~..........m..........................................:::::::
                                                                                                       NUMBER OF CLOSED
                                                                                                           HOSPITALS
                  DISTANCE                                                                             Rural                              Urban
                  Within 3 Miles                                                                       1 (8%)                             12 (50%)
                  4-10 Miles                                                                           3 (23%)                            12 (50%)
                  11-20 Miles                                                                          6 (46%)                              o
                  21-30 Miles                                                                          2 (15%)                              o
                 More than 30 Miles                                                                    1 (8%)                               o
                                                               Totals                                  13 (loo%)                          24 (100%)

Rural Areas: Residents in 10 of the 13 rural communities (77 percent) where a hospital
closed could get inpatient hospital care within 20 miles of the closed hospital. Residents
of Falfurrias, Texas had to travel 36 miles for fill service inpatient hospital care.

Urban Areas: In all 24 urban communities where a hospital closed in 1995, residents
could get inpatient hospital care within 10 miles of the closed hospital. Nineteen of the
24 urban communities (79 percent) where a hospital closed could get inpatient care in
the same town.

Emer~encv Services: When a hospital closed, the community lost not only inpatient beds,
but also 24-hour emergency services.

Rural Areas: In 12 of the 13 rural communities (92 percent) where a hospital closed in
1994, emergency care facilities were available within 20 miles of the closed hospital.
Residents of Karlstad, Minnesota had to travel 28 miles for 24-hour emergency care.

Urban Areas: In all 24 urban communities where a hospital closed in 1995, emergency
care facilities were available within 10 miles of the closed hospital. Nineteen of the 24
urban communities (79 percent) where a hospital closed could get emergency sefices in
the same town.




                                                                                        8

        .::   !        :j&I@GENCY
                  .“@@iis’i   $i?iRVKIiS
                                   h :@LOS@HQ@n~
                                                            NUMBER OF CLOSED
                                                                HOSPITALS
         DISTANCE                                           Rural            Urban
          Within 3 Miles                                    3 (23%)          12 (50%)
          4-10 Miles                                        3 (23%)          12 (50%)
          11-20 Miles                                       6 (46%)          o
          21-30 Miles                                        1 (8%)          o
         More than 30 Miles                                 o                0
                              Totals                         13 (loo%)      24 (100%)
   L
?f%at   Is the ~g       tkd   For NOW

At the time of our review, 17 of the 37 closed hospital buildings (46 percent) were being
used for health-related services. For example:

          Brooks County Hospital in Falfurrias, Texas became an outpatient clinic and
          emergenq care facility.

          Fairbury Hospital in Fairbuxy, Illinois and Merryville General Hospital in
          Merryville, Louisiana are now nursing homes.

          Ludlow Hospital in Ludlow, Massachusetts and Caddo Oaks Medical Center in
          Shreveport, Louisiana were converted to rehabilitation hospitals.

          Alamance Memorial Hospital in Burlington, North Carolina is now a home health
          agency.

Some hospital administrations and communities have long realized the possibility of their
hospitals closing. They planned to use the closing as an opportunity to reassess and
improve community health care. Two hospitals closed in 1995 as part of a plan to
upgrade community hospital care: In Burlington, North Carolina, Alamance Memorial
Hospital and Alamance County Hospital merged and closed the existing two facilities and
the new modern Alamance Regional Medical Center opened.

At the time of our review, community officials were planning to use 3 of the remaining
17 vacant hospitals for health-related semices. Vencor Hospital in Youngtown, Arizona
will be converted to a nursing home and Family Hospital Center in Amarillo, Texas plan
to re-open.   Menorah Medical Center in Kansas City, Missouri will be used for scientific
research related to cancer.


                                               9

1.	   Hospital occupancy rate is defined as the actual number of patient days divided by
      the total bed days available. National average occupancy rate is defined as the
      sum of all hospitals’ occupancy rates, divided by the number of hospitals.

2.	   Average Medicare utilization of closed rural and urban hospitals is defined as the
      percent of Medicare patient days compared to the total patient days for each
      hospital, summed and divided by the number of hospitals. National average
      Medicare utilization is the percent of Medicare utilization of each hospital,
      summed and divided by the total number of hospitals.

3.    Medicaid utilization is calculated in the same way as Medicare utilization.




                                            10

                                 APPENDIX                  A


                                     MErHoDoJmGY

Extent of HospitalChure

To determine how many hospitals closed in 1995, we surveyed State licensing and
certification agencies, State hospital associations, and State health planning agencies. We
also compiled Health Care Financing Administration (HCFA) data on terminated
providers in 1995. When a closed hospital met the study’s definition or when there were
questions, we contacted ofllcials associated with the closed hospitals, officials associated
with hospitals nearest to the closed hospital, and local public officials.

To determine the number of hospitals in the United States, we used the Hospital Cost
Report Information System (HCRIS) maintained by HCFA. We included only general,
short-term, acute care hospitals under Medicare’s Prospective Payment System (PPS) in
the universe. There were 4,711 hospitals listed on HCRIS as short-term, acute care,
general hospitals for the eleventh year of PPS (PPS 11).

(laracterikticsof Hospiml Chure

To analyze characteristics of closed hospitals, we used HCRIS data. Cost reports were
not available for 2 of the 37 hospitals. For the remaining 35 hospitals, we used the latest
pre-closure cost reports. For example, if a hospital closed in May 1995 and its
accounting year was on a January-December cycle, we used the provider’s January 1,
1994 to December 31, 1994 report,

Impct of Hmpital Chute

We limited our “impact” analysis to the distance from a closed hospital to the nearest
still-operating hospitals and to emergency services. We obtained data for our analysis
from interviews with the following sources.

�      Former hospital administrators,   board members, and/or staff of closed hospitals

�      Hospital administrators   and/or staff at the nearest hospitals

�      Local police, health, and government officials

�      State health planning agencies

E      State certification and licensing agencies

b      State hospital associations



                                             A -1

                  APPENDIX                  B



                                                3              8
                                                               2
Arkansas
         II        2                                  1
California
       II        2
Florida
          II        2
Missouri
         II        2
                                                       1


North Carolina
   II        2          II       1              1




                  11                   11              1

Maryland
                   1                   0              1
                  11                   II              I
Michigan
                   1           I       1             0
Minnesota
        II        1                   1             0
New Jersey
       1~
Oklahoma
         II        1                          1


Pennsylvania
               1                   0      I       1
                                                       1



20 states
             37 closures          13 Rural   I   24 Urban




                                B-1

                                      APPENDIX          C





St. Michael Hospital                       Texarkana              urban
Nevada County Hospital                     Prescott               rural
Vencor Hospital-Youngtown                  Youngtown         Az   urban
West Valley Hospital                       Canoga Park       CA   urban
Calexico Hospital                          Calexico          CA   rural
Provenant Mercy Medical Center             Denver            co   urban
Physicians Community Hospital              St. Petersburg    FL   urban
Polk General Hospital                      Bartow            FL   urban
Story City Memorial Hospital               Story City        IA   rural
Fairbury Hospital                          Fairbury          IL   rural
Northwest Family Hospital                  Gary              IN   urban
St. John’s Regional Health Center          Salina            Ks   rural
Caddo Oaks Medical Center                  Shreveport        LA   urban
New Orleans General Hospital               New Orleans       LA   urban
Merryville General Hospital                Merryville        LA   rural
Ludlow Hospital                            Ludlow                 urban
Frostburg Hospital                         Frostburg         MD   urban
Traverse City Community Hospital           Traverse City     MI   rural
Karlstad Memorial Hospital                 Karlstad          MN   rural
AMI Keller Memorial Hospital               Fayette           MO   rural
Menorah Medical Center                     Kansas City       MO   urban
Alamance County Hospital                   Burlington        NC   urban
Alamance Memorial Hospital                 Burlington        NC   urban
Zurbrugg Memorial Hospital                 Riverside         NJ   urban
Thomas Memorial Hospital                   Thomas            OK   rural
Thomas Jefferson Hospital-Ford Road        Philadelphia      PA   urban
Danforth Hospital                          Texas City        TX   urban
Goliad County Hospital                     Goliad            TX   rural
Westbu~ Hospital                           Houston           TX   urban
Doctors Hospital                           Conroe            TX   urban
Pasadena General Hospital                  Pasadena          TX   urban
Family Hospital Center                     Amarillo          Tx   urban
Brooks County Hospital                     Falfurrias        Tx   rural
Plaza Medical Center-East                  Fort Worth        Tx   urban
Gilmer Medical Center                      Gilmer            Tx   rural
Twin Oaks Medical Center                   Fort Worth        TX   urban
HCA Medical Center of Houston              Houston           Tx   urban



                                           c-1
